No. 19-511
IN THE

FACEBOOK, INC.,
Petitioner,

v.
NOAH DUGUID, ET AL.,

Respondents.
As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amici
Curiae Electronic Privacy Information Center and Twenty-Two Technical Experts
and Legal Scholars in Support of Respondent complies with the word limitations set
forth by the Rules of the Court. I certify that the Brief contains 7,778 words, not
counting the portions excluded by Supreme Court Rule 33.1(d).
I declare that under penalty of perjury that the foregoing is true and correct.
Executed on October 23, 2020.
/s/ Alan Butler
Alan Butler
Electronic Privacy Information
Center (EPIC)
1519 New Hampshire Ave N.W.
Washington, DC 20036
(202) 483-1140
butler@epic.org

